                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              LACK OF CONTINGENCY PLANS CONTRIBUTED TO
                                              MORE THAN $100 MILLION IN POTENTIAL
                                              OVERPAYMENTS OF HURRICANE-RELATED
                                              UNEMPLOYMENT BENEFITS




                                                                  Report Number: 06-08-001-03-315
                                                                  Date Issued: June 12, 2008
U.S. Department of Labor                                June 2008
Office of Inspector General
                                                        LACK OF CONTINGENCY PLANS
Office of Audit                                         CONTRIBUTED TO MORE THAN $100
                                                        MILLION IN POTENTIAL OVERPAYMENTS
BRIEFLY…                                                OF HURRICANE-RELATED
                                                        UNEMPLOYMENT BENEFITS
Highlights of Report Number: 06-08-001-03-315,
to the Employment and Training Administration.          WHAT OIG FOUND
                                                        The OIG found that certain controls over claims
WHY READ THE REPORT                                     initiation, payment processes, and fraud detection
Hurricanes Katrina and Rita devastated the Gulf         were ineffective. These conditions occurred in part
Coast Region on August 29, 2005, and September          because the states did not have operational
24, 2005, respectively. Among their impacts,            contingency plans in place to permit rapid
numerous local employers were forced out of             processing of claims and at the same time ensure
business and, as a result, an unprecedented number      payments were made only to eligible claimants.
of workers became instantly unemployed. These
workers could then potentially claim benefits under     WHAT OIG RECOMMENDED
State Unemployment Insurance (UI), or Disaster          We recommend that the Assistant Secretary for
Unemployment Assistance (DUA), funded by the            Employment and Training:
Federal Emergency Management Agency (FEMA).
                                                            1. Develop nationally coordinated contingency
Despite the enormous challenges in providing                   plans that provide alternatives for individual
benefits, we estimate the affected States paid $1.3            states to adopt in processing DUA and UI
billion in combined UI and DUA benefits to claimants           when normal processing is disrupted by
following the hurricanes; however, we estimate the             disasters or other reasons. Such plans
states collectively paid more than $100 million in             should specifically include compensating
potentially erroneous or fraudulent claims.                    controls for instances when States suspend
                                                               eligibility and benefit payment controls;
WHY OIG DID THE WORK
The Office of Inspector General initiated review work       2. Require States to suspend DUA and UI
of Hurricane-related payments made under the two               payments after a reasonable, but limited,
programs. Our work was conducted to answer the                 period of time for claimants who cannot
following question:                                            provide proof of employment, or whose
                                                               alternative documentation does not support
    •   Were internal controls over states’ claims             initial claimant eligibility;
        initiation, payment processes, and fraud
        detection effective?                                3. Promote data sharing among states to
                                                               minimize invalid duplicate payments.
We are issuing this report to provide a complete
picture of the OIG’s results regarding hurricane-       In its response to our draft report, ETA committed to
related unemployment benefit overpayments.              continue to coordinate contingency planning for
                                                        state unemployment insurance operations when
READ THE FULL REPORT                                    normal processing is disrupted by disasters; issue
                                                        guidance to remind states of the DUA eligibility
To view the report, including the scope,
                                                        requirements, including the requirement to suspend
methodology, and full agency response, go to:
                                                        and deny payment, and establish appropriate
http://www.oig.dol.gov/public/reports/oa/               overpayments, when timely documentation is not
2008/06-08-001-03-315.pdf                               provided; and to continue to actively promote the
                                                        use of data matching tools to reduce improper
                                                        payments.
                                                                                           Katrina Summary Report




Table of Contents
                                                                                                                 PAGE

       Executive Summary ........................................................................................... 3


       Assistant Inspector General’s Report .............................................................. 7


       Findings and Recommendations ..................................................................... 8


       Certain controls over claims initiation, payment processes, and fraud
       detection were ineffective.................................................................................. 8
       I. The suspension of controls over initial eligibility procedures resulted
           in possible overpayments exceeding $100 million .................................... 8
           A. DUA claims were established without evidence to determine
           proof of employment .................................................................................... 8
           B. Mississippi DUA claims were paid at the maximum weekly benefit
           amount (WBA) without determining their normal entitlement ................ 10


       II. The lack of proper controls over debit cards in Louisiana created
           opportunities for fraud................................................................................ 11


       III. Louisiana did not have procedures in place to utilize available tools
            to verify claimants’ identities and detect claimants who continued
            to draw benefits despite obtaining employment ...................................... 12
           A. DUA and UI claims were established using invalid SSNs.................. 12
           B. Claimants continued to receive DUA and UI benefits despite
           indicators that they were no longer eligible ............................................. 13


       IV. Some DUA and UI claims were duplicated among States and other
          grant funded programs............................................................................... 15
           A. States did not identify claimants receiving benefits under both
           DUA and UI .................................................................................................. 15
           B. States did not identify claimants that received unemployment
           benefits after they had obtained subsidized employment funded
           by DOL's National Emergency Grants to the affected states .................. 15


U.S. Department of Labor—Office of Inspector General                                                                     1
Report Number: 06-08-001-03-315
Katrina Summary Report


      V. Insufficient accountability resulted in mismanagement of Federal
         funds ............................................................................................................ 16
           A. Louisiana drew down from the Hurricanes Katrina and Rita DUA
           grants $2.7 million more than what it actually paid claimants ................ 16
           B. Louisiana did not make timely re-determinations of UI eligibility
           for DUA beneficiaries.................................................................................. 16


      Recommendations ........................................................................................... 17


      Exhibits ............................................................................................................. 19
           A. DUA Funding, Disbursements, and Population ................................... 21
           B. Katrina/Rita Related Audit Report/Management Letters ..................... 22
           C. Internal Control Issues Identified (by State)......................................... 23


      Appendices ....................................................................................................... 25
           A. Background............................................................................................ 27
           B. Objective, Scope, Methodology, and Criteria...................................... 29
           C. Acronyms and Abbreviations................................................................ 31
           D. Agency Response .................................................................................. 33




2                                                     U.S. Department of labor—Office of Inspector General
                                                                           Report Number: 06-08-001-03-315
                                                                  Katrina Summary Report




Executive Summary
Hurricanes Katrina and Rita devastated the Gulf Coast Region on August 29, 2005, and
September 24, 2005, respectively. Among their impacts, numerous local employers
were forced out of business and, as a result, an unprecedented number of workers
became instantly unemployed.

Individuals unemployed as a result of Hurricanes Katrina and Rita could claim benefits
under one of two unemployment compensation programs delivered by the states in
partnership with the U.S. Department of Labor (DOL):

   1. State Unemployment Insurance (UI), or
   2. Disaster Unemployment Assistance (DUA), funded by the Federal Emergency
      Management Agency (FEMA).

On October 13, 2005, the Office of Management and Budget (OMB) provided
implementation policy intended to “ensure a citizen-centered approach in a cost-
effective manner that prevents fraud and abuse.” While OMB called on Federal
agencies to relax – and even waive, if allowable – enrollment criteria and documentation
requirements, OMB stated that such measures should be time-limited. OMB also stated
that Federal agencies and their state and local partners should require compensating
controls to ensure that benefits would go only to eligible individuals.

Since the hurricanes affected both the infrastructure and staffing of the affected State
Workforce Agencies (SWAs), other states stepped up to act as agents for the affected
states for the processing of claims. Another challenge was that many of the victims and
employers lost records that would, for example, substantiate claimants’ eligibility for
assistance. Despite these enormous challenges, we estimate the affected States paid
more than $1.3 billion in combined UI and DUA benefits to claimants following the
hurricanes.

To determine if unemployment benefits reached eligible recipients as intended, the OIG
initiated reviews of Hurricane-related payments made under the two programs. Our
work was conducted to answer the following question:

   •   Were internal controls over states’ claims initiation, payment processes, and
       fraud detection effective?

The OIG has communicated our interim results through a series of Management Letters
regarding UI and DUA overpayments. We also issued a separate audit report on
potential overpayments that occurred in Louisiana because the State did not verify
claimants’ Social Security Numbers (SSNs). These reports are summarized in



U.S. Department of Labor—Office of Inspector General                                     3
Report Number: 06-08-001-03-315
Katrina Summary Report


Exhibit B. We are issuing this report to provide a complete picture of the OIG’s review
results regarding hurricane-related unemployment benefit overpayments. As such, this
report summarizes issues previously disclosed as well as the results of subsequent
review work. Specifically, we found that:

    •   Louisiana and Mississippi relaxed or waived existing controls without putting
        compensating controls in place.

    •   Louisiana and Mississippi suspended controls over DUA initial eligibility
        procedures, which resulted in possible overpayments exceeding $100 million;

    •   Although it was within his authority to do so, the Governor of Mississippi issued
        an Executive Order that required payment of the maximum weekly benefit
        amount without regard to the claimant’s prior earnings, which resulted in the
        State paying at least $7.7 million more than it would have otherwise paid in
        Federally-funded DUA benefits;

    •   Louisiana used a new, untested benefit delivery method, which lacked proper
        controls and created opportunities for fraud;

    •   Louisiana did not have procedures in place to utilize available tools to verify
        claimants’ identities and detect claimants who continued to draw benefits despite
        obtaining employment;

    •   States did not identify claimants receiving benefits under both UI and DUA;

    •   States did not determine if claimants had obtained subsidized employment
        funded by DOL’s National Emergency Grants (NEGs) to the affected States while
        receiving DUA or UI; and

    •   Louisiana had insufficient accountability over federal funds.

These conditions occurred in part because the states did not have operational
contingency plans in place to permit rapid processing of claims and at the same time
ensure payments were made only to eligible claimants. As a result, we estimate the
states collectively paid more than $100 million in potentially erroneous or fraudulent
claims, or roughly 7 percent of the $1.3 billion in benefits paid.


Recommendations

Through our previously issued management letters and report, we made a number of
recommendations to the Assistant Secretary for Employment and Training to: improve
overpayment prevention and detection; oversee states’ efforts to recover erroneous
payments; and ensure states take appropriate actions against claimants found to have
obtained benefits fraudulently.


4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-08-001-03-315
                                                                   Katrina Summary Report


In this report, we are further recommending that the Assistant Secretary for Employment
and Training:

   1. Develop nationally coordinated contingency plans that provide alternatives for
      individual states to adopt in processing DUA and UI when normal processing is
      disrupted by disasters or other reasons. Such plans should specifically include
      compensating controls for instances when States suspend eligibility and benefit
      payment controls;

   2. Require States to suspend DUA and UI payments after a reasonable, but limited,
      period of time for claimants who cannot provide proof of employment, or whose
      alternative documentation does not support initial claimant eligibility;

   3. Promote data sharing among states to minimize invalid duplicate payments.

Agency Response

ETA generally agreed with our recommendations. They have been working with states
to coordinate contingency planning for state unemployment insurance operations when
normal processing is disrupted by disasters. They plan to post on their website the
National Unemployment Insurance Disaster Preparedness Planning Effort, which
outlines lessons learned and contains a set of recommendations concerning disaster
preparedness planning. Additionally, they have convened a federal-state workgroup to
develop guidance and procedures for states to include in their individual state continuity
of operations plans.

Concerning claimant DUA and UI eligibility, ETA plans to issue an Unemployment
Insurance Program Letter in the near future to remind states of the DUA eligibility
requirements, including the requirement to suspend and deny payment, and establish
appropriate overpayments, when timely documentation is not provided.

ETA has been actively engaged in promoting the use of data matching and other tools
in order to minimize invalid, duplicate or fraudulent payments. In addition, they have
promoted the use of the National Directory of New Hires data to access information on
claimants who have returned to work.

OIG Conclusions

Based on ETA’s response and actions related to all three recommendations, we
consider all three recommendations resolved.




U.S. Department of Labor—Office of Inspector General                                     5
Report Number: 06-08-001-03-315
Katrina Summary Report




                         PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-08-001-03-315
Katrina Summary Report




U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC 20210




June 12, 2008


                         Assistant Inspector General’s Report


Mr. Brent R. Orrell
Acting Assistant Secretary for Employment
  and Training
U.S. Department of Labor
Frances Perkins Building
200 Constitution Avenue, NW
Washington, DC 20210

Following the devastating impact Hurricanes Katrina and Rita had on the Gulf Coast
Region, the OIG began oversight of key Federal programs to identify and assist DOL
and its grantees in minimizing waste, fraud, and abuse. Our oversight efforts focused
on the Unemployment Insurance (UI) and Disaster Unemployment Assistance (DUA)
programs because of their magnitude and high risk for claimant fraud and abuse.

Specifically, the OIG initiated work to answer the following question:

    •   Were internal controls over states’ claims initiation, payment processes, and
        fraud detection effective?

The OIG has communicated our interim results through a series of Management Letters
regarding UI and DUA overpayments. We also issued a separate audit report on
potential overpayments that occurred in Louisiana because the State did not verify
claimants’ Social Security Numbers (SSNs). These reports are summarized in Exhibit
B. We are issuing this report to provide a complete picture of the OIG’s review results
regarding hurricane-related unemployment benefit overpayments. As such, this report
summarizes issues previously disclosed as well as the results of subsequent review
work.

Our objectives, scope, methodology and criteria are detailed in Appendix B.




7                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-08-001-03-315
Katrina Summary Report



Findings and Recommendations
____________________________________________________
Objective: Were internal controls over states’ claims initiation, payment
processes, and fraud detection effective?
_____________________________________________________________________

Certain controls over claims initiation, payment processes, and fraud detection
were ineffective.

In accordance with guidance issued by the Office of Management and Budget,
Louisiana and Mississippi suspended regular DUA eligibility documentation
requirements. However, Louisiana was unsuccessful in subsequently reestablishing
processing controls as required, which resulted in unsubstantiated claims continuing to
be paid. Also, Louisiana implemented the use of debit cards to quickly deliver benefits,
but did not have adequate controls to ensure the debit cards reached only eligible
claimants or that funds in unactivated debit card accounts were recovered.
Furthermore, Louisiana did not use available tools and processes – including verifying
claimants’ Social Security Numbers and conducting data crossmatches – to detect
claimants who were improperly or fraudulently receiving benefits, or were improperly
receiving services and benefits under multiple programs.

These conditions occurred in part because there were no nationally coordinated
operational contingency plans in place to permit rapid processing of claims and at the
same time ensure payments were made only to eligible claimants. As a result, we
estimate Louisiana and Mississippi collectively paid more than $100 million in potentially
erroneous or fraudulent claims. Following the 2005 hurricanes, ETA, the National
Association of State Workforce Agencies, and individual State Workforce Agencies
developed the draft National Unemployment Insurance Disaster Preparedness Plan
(NUIDPP) using lessons learned from recent disasters, including Hurricanes Katrina
and Rita. The NUIDPP has not been published; however, ETA has acted on some
recommendations in the plan. One action ETA has taken is to establish an Interstate
Disaster Preparedness Planning Workgroup, whose goal is to develop guidance for
states in the event of another mass unemployment event.

I. The suspension of controls over initial eligibility procedures resulted in
possible overpayments exceeding $100 million.

    A. DUA claims were established without evidence to determine proof of
       employment.

Mississippi suspended basic eligibility review controls to expedite the handling of DUA
claims. ETA instructed officials in Louisiana and Mississippi to extend the timeframe for
DUA claimants to provide proof of eligibility from 21 to 90 days. While these actions were
intended to streamline claimants’ access to benefits, the suspension of critical controls
resulted in substantial overpayments of DUA benefits.

8                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-08-001-03-315
                                                                                                   Katrina Summary Report




We analyzed DUA proof of employment (POE) eligibility at the Louisiana Department of
Labor (LDOL) and Mississippi Department of Employment Security (MDES). We found
that benefits were paid to claimants who never provided any documentation to substantiate
their claim, even a year after the hurricanes hit. Other claimants supplied documentation
that was inadequate to evidence their eligibility to benefits.

We found Louisiana paid total benefits of $192.6 million of which:

     •    at least $62.1 million went to claimants who never provided documentation to
          support their claim.1
     •    $38,780 went to claimants who did not provide adequate documentation to support
          their claim.2

We found Mississippi paid total benefits of $37.6 million of which:

     •    at least $3.3 million went to claimants who never provided documentation to support
          their claim.3

     •    at least $18.5 million went to claimants who did not provide adequate
          documentation to support their claim.4

According to 20 Code of Federal Regulations (CFR) 625.6, for documents to be
considered valid POE, they must show that an individual was working, or was
scheduled to commence working, at the date of the disaster. In both states, we found
that 145 claimants provided only 2004 tax documents, which did not show an
individual’s employment at the time of Hurricane Katrina (August 2005) or Hurricane
Rita (September 2005). Claimants also provided other documents that did not
substantiate their employment status at the date of the disaster, including outdated
documents such as 2002 or 2003 tax documents, pay stubs dated months before or
after the hurricane, and business licenses with no other supporting documents. We did
not consider these documents adequate since they did not show an individual’s
employment status at the date of the disaster.

The overpayments in Louisiana occurred in part because the State did not reestablish
effective claims processing and eligibility controls following the disaster, contrary to
OMB guidance. On October 13, 2005, OMB issued a memorandum providing guidance
1
  Estimate is based on 60 (41 percent) of 147 claimants, paid $111,132, we determined did not provide documentation to prove
eligibility for their claim. Based on this sample result, we estimate, with 95 percent confidence that between $62,128,466 and
$101,329,658 was paid to claimants who did not provide documentation to support their claim. The point estimate of the dollar
value of such unsubstantiated claims is $81,729,062.
2
  The number of occurrences (10 of 147 claimants) was limited and therefore not projected.
3
  Estimate is based on 85 (23 percent) of 364 claimants, paid $159,782, we determined did not provide documentation to prove
eligibility for their claim. Based on this sample result, we estimate, with 95 percent confidence that between $3,300,617 and
$5,945,637 was paid to claimants who did not provide documentation to support their claim. The point estimate of the dollar value
of such unsubstantiated claims is $4,623,127.
4
  Estimate is based on 176 (48 percent) of 364 claimants, paid $702,408, we determined did not provide adequate documentation to
prove eligibility for their claim. Based on this sample result, we estimate, with 95 percent confidence that between $18,520,512 and
$22,126,478 was paid to claimants who did not provide adequate documentation to support their claim. The point estimate of the
dollar value of such unsubstantiated claims is $20,323,495.


U.S. Department of Labor—Office of Inspector General                                                                              9
Report Number: 06-08-001-03-315
Katrina Summary Report


to Federal agencies regarding implementation of the President’s pledge to provide
hurricane victims access to streamlined registration and enrollment in Federal benefit
programs for which they qualified. The OMB memorandum recommended waiving
some documentation requirements, but also included guidelines for ensuring that
benefits were only provided to individuals who needed and qualified for assistance. The
OMB guidance for the suspension of normal processing controls mandated that States
resume normal procedures within 30-90 days to ensure the validity of claims.
Consistent with the OMB guidance, Louisiana attempted to reestablish processing
controls. However, due to inadequate staff resources and lack of communication with
claimants, they were unable to adjudicate claims in a timely manner. As a result,
unsubstantiated claims continued to be paid.

Officials in each state indicated that they did not initially have sufficient staff and funding
to process DUA and UI at the drastically increased level after the hurricanes. For this
reason, certain other states provided assistance in processing claims for the affected
states. These experiences illustrated the need to formalize UI disaster response
planning at the national level to assure a rapid, effective response to future disasters
from all risks. Officials in the affected states confirmed that they were hampered by not
having contingency agreements in place with other states in advance of the hurricanes
that could have been immediately activated to share resources and distribute the claims
processing load. Following the hurricanes, ETA did assist the affected states in
preparing and implementing resource-sharing agreements with other states. However,
because of differences in State regulations for the DUA and UI programs, staff in the
other states had to be trained on the affected states’ program requirements.

Subsequently, ETA, the National Association of State Workforce Agencies, and
individual State Workforce Agencies developed the September 2006 draft National
Unemployment Insurance Disaster Preparedness Plan (NUIDPP) using lessons learned
from recent disasters, including Hurricanes Katrina and Rita.


     B. Mississippi DUA claims were paid at the maximum weekly benefit amount
        (WBA) without determining their normal entitlement.

The amount of DUA a claimant receives each week is called the weekly benefit amount
(WBA), and 20 CFR 625.6 requires the DUA WBA be computed using the claimant’s
base period wages, which would be income earned in the year prior to the disaster. For
claimants affected by Hurricane Katrina, their WBA would normally have been
computed using their 2004 earnings. This requirement was superseded for Mississippi
claimants when the Governor of Mississippi acted within his authority to issue Executive
Order 940, which required the State to pay all claimants the maximum WBA of $210
without regard to the amount of prior year earnings. As a result, Mississippi paid at
least $7.7 million more than it would have using normal DUA entitlement calculations.5
5
 In order to determine the impact of paying the maximum WBA, we calculated the WBA for claimants who provided 2004 tax
documents and compared our results to what MDES actually paid the claimants. Only 159 claimants or 44 percent of our sample of
364 provided 2004 tax documents. Therefore, this projection is based on only 44 percent (+ or – 5 percent) of our universe of
10,532 claimants.


10                                                      U.S. Department of Labor—Office of Inspector General
                                                                            Report Number: 06-08-001-03-315
                                                                    Katrina Summary Report




II. The lack of proper controls over the new debit card payment process in
Louisiana created opportunities for fraud and Mismanagement.

Section 303(a)(1) of the SSA requires States to “provide for such methods of
administration as will reasonably ensure the prompt and full payment of unemployment
benefits to eligible claimants, … with the greatest accuracy feasible.”

To expedite the delivery of DUA and UI benefits to hurricane-affected claimants in
Louisiana, the State developed and implemented a new payment method using debit
cards. JPMorgan Chase was awarded the contract to establish debit card accounts for
claimants in Louisiana. We audited the processes the State and JPMorgan Chase used
to distribute and manage the debit cards at the Louisiana Department of Labor (LDOL).
We reviewed and identified numerous control weaknesses that created opportunities for
someone other than the intended claimant to obtain benefits via the debit cards. The
breakdown in controls included:

   1. Louisiana maintained insufficient controls to properly handle and account for
      debit cards returned to its offices. This created an opportunity for employees
      who had access to the State claims system, which contained claimants’ SSNs
      and birthdates, to take possession of the debit cards and activate them, thus
      illegally gaining access to UI benefits.

   2. JPMorgan’s Customer Service Representatives (CSRs) were authorized to
      change, or reveal the birth date on the account to callers having problems
      activating an account. Because the birth date was used to confirm that the
      person in possession of a debit card was the authorized claimant, allowing CSRs
      to reveal this key data to callers compromised the effectiveness of this security
      control.

   3. CSRs were given access to key security data needed to activate the debit cards,
      including claimants’ full SSN and birth date. This, coupled with the CSRs’ ability
      to manipulate the address where cards were sent, created an opportunity for
      these individuals to redirect debit cards to a location where they could take
      possession. They could then activate the card using the security data accessible
      from their banking system, enabling the CSR to obtain DUA and UI benefits
      belonging to someone else.

Although we did not identify any instances in which unauthorized individuals obtained
benefits paid on debit cards, the ineffective controls in place over this process created a
substantial risk that such fraudulent access to benefits would occur.

In addition to the above weaknesses in controls over debit card authorization, we found
Louisiana paid, and had not retrieved, almost $1.2 million in Hurricanes Katrina- and
Rita-related DUA and UI benefits on 1,570 debit card accounts that were never
activated by the claimants. Louisiana’s Debit Card Business Rules, February 2006,

U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 06-08-001-03-315
Katrina Summary Report


1. Debit Card Issue, require that funds paid on debit card accounts with no activity
within 60 days be returned to the State. Of the nearly $1.2 million, $354,070 was paid
from Federal funds provided under the DUA grants. Since the DUA grants awarded to
Louisiana have been closed out, it is imperative that funds paid on inactive debit card
accounts be retrieved so that any unused DUA funds can be returned to ETA and made
available for other regions affected by a disaster.

III. Louisiana did not have procedures in place to fully utilize available tools to
verify claimants’ identities and detect claimants who continued to draw benefits
despite obtaining employment.

For both DUA and UI claims, states are required to use tools that are available to
ensure that claims are valid, and that claimants maintain their eligibility for benefits.
Louisiana did not effectively use two major tools that were available to the states.

     A. DUA and UI claims were established using invalid SSNs.

As a control to combat fraud and abuse in the UI program, information is available from
the Social Security Administration (SSA) and the U.S. Department of Commerce
(USDOC) that allows SWAs to confirm the validity of claims. ETA has established a
memorandum of understanding (MOU) with SSA enabling SWAs real-time access to
SSA’s database to check for discrepancies in a claimant’s name, SSN, and birth date
when claims are initiated. The USDOC allows access to the Death Master File, which
SWAs can use to verify whether claims are processed using information that belongs to
someone who reportedly has died.

At LDOL, we found that information from these databases was not effectively used as a
tool to identify potentially fabricated claims. As a result, Louisiana may have paid at
least $3.7 million in hurricane-related unemployment claims based on claims filed using
invalid SSNs.

     •   Benefits totaling $314,913 were paid on 186 DUA and UI claims that were
         processed with SSNs the SSA never issued.

     •   Benefits in the amount of $661,293 were paid on 317 DUA and UI claims that
         were processed with SSNs that belonged to deceased persons.

              o $642,250 was paid on 307 claims using SSNs belonging to persons
                reported to have died prior to Hurricane Katrina hitting the Gulf Coast
                Region on August 29, 2005.

              o $19,043 was paid on 10 claims for weeks of unemployment that
                occurred after the claimant’s death. These claimants were reported to
                have died after Hurricane Katrina hit the Gulf Coast Region on August
                29, 2005.



12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-08-001-03-315
                                                                                               Katrina Summary Report



                          Hurricane Benefits Paid on Claims that used the SSN of a Deceased Person
                                                         Deceased prior to             Deceased on or after
                                                          August 29, 2005                August 29, 2005
                                                       Claims         Benefits      Claims           Benefits
          Claimants’ name did not agree with the
                                                         299           $621,338        3              $7,154
          name reported in the Master Death File.
          Claimants’ name did match the name
          reported in the Master Death File.              8              20,912        7              11,889



         •    We estimate that at least $2,738,3806 was paid on DUA and UI claims with
              SSNs that did not match the names of the individuals assigned those
              numbers.

Had Louisiana used real-time information from SSA’s database and the Master Death
File, it could have avoided paying $3.7 million on claims that are possibly fraudulent.

       B. Claimants continued to receive DUA and UI benefits despite indicators
       that they were no longer eligible.

In order to continue to receive weekly DUA and UI benefits, ETA Federal Register
Notice, volume 65, Number 229, page 3, requires that claimants maintain their eligibility.
States can monitor their claimants’ compliance with the eligibility guidelines by
reviewing data from wage and employment records to determine if an individual has
returned to work. Since many Louisiana claimants had moved to other states, the
Louisiana State Directory of New Hires was not an effective tool in identifying their
possible re-employment. The State therefore used the National Directory of New Hires
(NDNH) as an indicator of changes in its claimants’ employment status.

We reviewed LDOL’s match of hurricane-related claims against NDNH as of
December 15, 2005, which revealed numerous claimants who had reportedly obtained
employment while simultaneously receiving benefits. However, Louisiana did not have
the resources to conduct timely and thorough investigations on the suspected claims.
We estimate that, had the State used the results from this match more timely, it could
have avoided paying $13,409,575, in potentially fraudulent overpayments. We
identified 11,723 claimants who reportedly obtained employment during the disaster
period, on or before December 15, 2005, but continued to receive benefits for weeks
beginning in February 2006 and later. We chose February 2006 to estimate the impact
of Louisiana’s delayed processing because we believed that would have been a
sufficient period to determine the match results if adequate resources and procedures
had been available.


6
  Our estimate is based on 51 (16.1 percent) (M.3.3, Combined Workpaper, line 333) claims, paid $99,892, (M.3.3, Combined
Workpaper, line 333), we confirmed that in fact used a SSN/name combination that did not match the names of the individuals to
whom SSA assigned the SSNs. Based on this sample result, we estimate, with 95 percent confidence (M.3.42, page 1), that
between $2,738,380 and $5,134,873 (M.3.42, page 1) was paid to between 1,632 and 2,713 (M.4.14, line 17) claimants where the
SSN used in the claims was assigned to someone other than the claimant. The point estimate of the dollar value of such payments
is $3,963,626 (M.3.42, page 13).



U.S. Department of Labor—Office of Inspector General                                                                        13
Report Number: 06-08-001-03-315
Katrina Summary Report




                                  Benefits Paid on or after February 1, 2006
                                                      to
                          Individuals Reportedly Hired on/before December 15, 2005
                                 Program               Claims            Benefits
                          Hurricane Katrina DUA              5,556        $8,607,444
                          Hurricane Katrina UI               5,949         4,526,678
                          Hurricane Rita DUA                    91           132,699
                          Hurricane Rita UI                    127           142,754
                          Total                             11,723       $13,409,575

To update the information from NDNH, we worked with the State to re-match its
hurricane-related claims against NDNH as of June 30, 2006. The results from this new
match showed the number of claimants who received DUA and UI benefits after
reportedly obtaining employment increased to 30,770 and benefits paid to these
persons was calculated at $51,180,655.

                 Benefits Paid After Claimants Reportedly Obtained New Employment
                                                      Claims              Benefits
           Benefits paid on or before 11/19/2005       18,388               $15,596,394
           Benefits paid after 11/19/2005              25,735                35,584,261
                                                             7
           Total                                      44,123                $51,180,655

 From August 28, through November 19, 2005, the State waived requirements for its
claimants to use its “Easy Call” system to claim weekly benefits by updating their
employment status and earnings. Instead, the State automatically paid (“Autopay”)
benefits to claimants during this period. The significance of distinguishing payments
made during and after “Autopay” reflects the claimant’s intention to defraud Louisiana.
Although many claimants may not have been entitled to the benefits paid during
Autopay, Louisiana has decided not to charge these individuals with fraud. However,
claimants will need to repay the State for any ineligible benefits they received.

After Autopay was terminated on November 19, 2005, claimants returned to using Easy
Call to update their employment status and earnings with Louisiana. Persons who
intentionally misrepresented their status are considered to have committed fraud if it is
determined that those individuals did, in fact, falsely report no wages earned while
simultaneously receiving benefits.




7
  The total number of claimants identified in the June 30, 2006 match was 30,770: 18,388 received benefits during “Autopay”,
whereas 25,735 received benefits after “Autopay”. The total (30,770) accounts for each claimant once; however, many claimants
received benefits during and after “Autopay” and are reflected in both sub-categories (during and after “Autopay).



14                                                       U.S. Department of Labor—Office of Inspector General
                                                                             Report Number: 06-08-001-03-315
                                                                  Katrina Summary Report




IV. Some DUA and UI claims were duplicated among states and other grant
    funded programs.

The lack of information sharing between programs and states resulted in claimants
obtaining multiple, duplicative benefits. According to ST Handbook No. 356, claimants can
not receive benefits under both DUA and UI. Some claimants received DUA or UI from
multiple states, or while being paid for work on Public Service Employment (PSE) projects.

   A. States did not identify claimants receiving benefits under both DUA and UI.

Our comparison of the 323,775 unemployment claims in Louisiana and 140,208
unemployment claims in Mississippi identified 300 instances where individuals filed
hurricane-related claims in both States.

     • Louisiana and Mississippi paid $240,014 of DUA to 190 individuals while they also
       received State UI from the other State.

       At the time we previously issued management letters with more specific details, the
       two States had recovered 36 claims (2 of the 36 claims were a partial recovery), but
       $205,028 remained to be collected for 156 claimants.

     • Louisiana and Mississippi paid $167,132 of DUA to 106 individuals.

       Subsequently, Louisiana recovered $7,252 payments for 7 claims and Mississippi
       recovered $3,430 payments for 4 claims (1 of the 4 claims was a partial recovery).
       At the time our prior management letters were issued, $156,450 remained to be
       collected for 96 claimants.

   B. States did not identify claimants who received unemployment benefits after
      they had obtained subsidized public service employment (PSE).

We analyzed DUA and UI claims for individuals who were simultaneously enrolled in PSE
at local workforce boards of the Alabama Department of Industrial Relations, LDOL, MDES,
and TWC. Through a comparison of 2,483 claims in Alabama, Louisiana, Mississippi, and
Texas identified as PSE enrollees with DUA and UI payment data, we identified 357
instances of DUA and UI beneficiaries simultaneously receiving unemployment benefits
while receiving wages for working on PSE projects. According to the ET Handbook No.
356, claimants were not eligible to receive unemployment benefits while also receiving PSE
wages.

The duplicated payments from the two programs were attributable to a lack of information
sharing between programs and States, not due to attempted misuse by claimants. A lack
of resources in the affected States also hampered their ability to identify and stop the
duplicated payments.



U.S. Department of Labor—Office of Inspector General                                  15
Report Number: 06-08-001-03-315
Katrina Summary Report


Since individuals could be enrolled without actually having yet worked on a PSE project, we
identified all those enrolled in PSE in the affected states. In order to quantify the
overpayments we obtained payroll records from local workforce investment areas (LWIAs)
for those individuals, and then compared the payrolls to DUA and UI payment records. In
Louisiana and Texas, we did not compare all PSE records, but analyzed a sampling from
several local boards.

We found that individuals had been paid PSE while receiving DUA or UI in the same or
another state. The total amount of DUA and UI overpaid for the 357 individuals for whom
we obtained PSE payroll records was approximately $295,000.

V. Insufficient accountability resulted in mismanagement of Federal funds.

     A. Louisiana drew down from the Hurricanes Katrina and Rita DUA grants
     $2.7 million more than what it actually paid claimants.

Our review of Louisiana’s debit cards revealed that, as of October 23, 2006, the State
had drawn down $2,622,229 and $118,496 more from the DUA grants for Hurricanes
Katrina- and Rita- related claims, respectively, than it had evidence to support in its
claims system. At the time of our review, we also identified a discrepancy in the DUA
totals between Louisiana’s accounting and claims systems. State officials stated that
this difference was the result of back-logged transactions they estimated would be
completed and entered into their systems within a year.

     B. Louisiana did not make timely re-determinations of UI eligibility for DUA
     beneficiaries.

Grant regulations provide that DUA is to be paid to affected individuals only when they
do not qualify for UI. Officials in Louisiana disclosed that claimants were paid DUA for
Hurricane Katrina-related claims that were initially ineligible for UI, using their second
calendar quarter 2004 through first calendar quarter 2005 base period wages.

Although the initial DUA determination was appropriate, if claimants were still
unemployed after October 1, 2005, as a result of the disaster, the State had a
responsibility to re-determine the UI claims based on wages in an updated base period.
The new UI base period was the third calendar quarter of 2004 through the second
calendar quarter of 2005 (July 1, 2004, through June 30, 2005). If claimants had
sufficient wages for UI eligibility in this new base period, the State would normally have
terminated the DUA claim, effective the week ending October 8, 2005, and established
a UI claim.

Louisiana was unable to make timely re-determinations to ensure payment of proper
DUA benefit amounts, or program entitlement, when wages in quarters subsequent to
the initial base period were sufficient to qualify the claimant for UI benefits. Many claims
needed to be transferred from DUA to UI based on the lag quarter wages, i.e. second
calendar quarter 2005, but were not done timely.


16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-08-001-03-315
                                                                   Katrina Summary Report




As a result of the workload and delay in compiling a wage record file, based on
employer’s tax and wage reports, no claims were re-determined based on the second
calendar quarter until sometime in December 2005, according to State officials. Any
affected DUA claimants who qualified for UI after October 1, 2005, required the State to
make accounting adjustments to transfer the DUA payments to the UI program for
weeks ending after October 8, 2005, until the UI claimants exhausted their Maximum
Benefit Amount.

Recommendations

     We recommend that the Assistant Secretary for Employment and Training:

     1. Develop a nationally coordinated contingency plan that provide alternatives for
        individual states to adopt in processing DUA and UI when normal processing is
        disrupted by disasters or other reasons, including compensating controls for
        instances when States suspend eligibility and benefit payment controls. If
        finalized and adopted by ETA and all States, the September 2006 draft
        NUIDPP would address the issues identified in the course of our work;

     2. Require States to suspend DUA and UI payments after a reasonable, but
        limited, period of time for claimants who cannot provide proof of employment, or
        whose alternative documentation does not support initial claimant eligibility; and

     3. Promote data sharing among states to minimize invalid duplicate payments.

Agency Response

ETA generally agreed with our recommendations. They have been working with states
to coordinate contingency planning for state unemployment insurance operations when
normal processing is disrupted by disasters. They plan to post on their website the
National Unemployment Insurance Disaster Preparedness Planning Effort, which
outlines lessons learned and contains a set of recommendations concerning disaster
preparedness planning. Additionally, they have convened a federal-state workgroup to
develop guidance and procedures for states to include in their individual state continuity
of operations plans.

Concerning claimant DUA and UI eligibility, ETA plans to issue an Unemployment
Insurance Program Letter in the near future to remind states of the DUA eligibility
requirements, including the requirement to suspend and deny payment, and establish
appropriate overpayments, when timely documentation is not provided.

ETA has been actively engaged in promoting the use of data matching and other tools
in order to minimize invalid, duplicate or fraudulent payments. In addition, they have
promoted the use of the National Directory of New Hires data to access information on
claimants who have returned to work.


U.S. Department of Labor—Office of Inspector General                                    17
Report Number: 06-08-001-03-315
Katrina Summary Report




OIG Conclusions

Based on ETA’s response and actions related to all three recommendations, we
consider all three recommendations resolved.




Elliot P. Lewis




18                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 06-08-001-03-315
                                                       Katrina Summary Report




Exhibits




U.S. Department of Labor—Office of Inspector General                      19
Report Number: 06-08-001-03-315
Katrina Summary Report




                         PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-08-001-03-315
                                                                                                 Katrina Summary Report


                                                                                                                 EXHIBIT A

                     DUA Funding, Disbursements, and Review Populations


                                                       State DUA Funding as of 6/12/07
                      State                                  Benefits  Administration
                      LA                                $302,811,747      $17,549,288
                      LA(Rita)                            10,829,988           955,500
                      MS **                               85,000,000         3,450,000
                      Total                             $398,641,735      $21,954,788




                              State DUA Disbursements as of 6/12/07
                      State                 Benefits      Administration
                      LA                   $301,262,296        $11,620,962
                      LA(Rita)               10,516,666            955,500
                      MS **                  83,800,000          3,080,926
                      Total                $395,578,962        $15,657,388




                                         Population Examined
               State             Programs        Benefits Paid                                As of Date
              LA             Katrina DUA           $299,323,6568                               10/23/06
              LA             Katrina UI              568,918,851                               10/23/06
              LA             Rita DUA                 10,489,667                               10/23/06
              LA             Rita UI                  24,165,293                               10/23/06
              MS             Katrina DUA              37,598,080                               6/09/06
                             Total                  $940,495,547




8
   The Louisiana benefits analyze for eligibility of DUA claimants was $192,632,599. Other issues for Louisiana benefits were
examined later, as noted in the table.



U.S. Department of Labor—Office of Inspector General                                                                            21
Report Number: 06-08-001-03-315
Katrina Summary Report



                                                                                         EXHIBIT B
                  Katrina/Rita Related Audit Report/Management Letters
                   REPORTS ISSUED                                  Report #         Product/Date
     1. Claimants with Unemployment Claims in Both                                 Management Letter
         Mississippi and Louisiana Related to Hurricane         06-06-004-03-315   December 20, 2005
         Katrina
     2. Items to Consider for Effective Implementation of the                      Management Letter
         NEG Awarded to the Texas Workforce Commission          06-06-001-03-390   December 20, 2005
         for Hurricanes Katrina and Rita Relief
     3. Grant Implementation Issues NEG No. EM-15067-05-                           Management Letter
         60 Issued to the Louisiana DOL for Hurricane Katrina   06-06-003-03-390   December 20, 2005
         Relief
     4. Grant Implementation Issues NEG No. EM-15066-05-                           Management Letter
         60 Issued to the Mississippi Department of             04-06-004-03-390   February 27, 2006
         Employment Security for Hurricane Katrina Relief
     5. Grant Implementation Issues NEG No. EM-15065-05-                           Management Letter
         60 Issued to the Alabama Department of Economic        04-06-003-03-390   February 28, 2006
         and Community Affairs for Hurricane Katrina Relief
     6. One Individual in Possession of Multiple Hurricane                         Management Letter
         Katrina Disaster Unemployment Assistance Claims in     06-06-005-03-315   March 3, 2006
         Louisiana
     7. Follow-up on Claimants with Unemployment Claims in                         Management Letter
         Both Mississippi and Louisiana Related to Hurricane    06-06-008-03-315   March 20, 2006
         Katrina -
     8. Questionable Eligibility of College Students in                            Management Letter
                                                                04-06-008-03-390
         Mississippi’s NEG Training Program                                        September 28, 2006
     9. Individuals Received Unemployment Benefits in                              Management Letter
                                                                06-06-006-03-315
         Louisiana While Receiving PSE Wages in Texas                              September 29, 2006
     10. Individuals Received Unemployment Benefits in                             Management Letter
                                                                06-06-007-03-315
         Louisiana While Receiving PSE Wages in Louisiana                          September 29, 2006
     11. Individuals Received DUA in Louisiana While                               Management Letter
                                                                06-06-009-03-315
         Receiving UI in Mississippi                                               September 29, 2006
     12. Individuals Received DUA in Both Louisiana and                            Management Letter
         Mississippi                                            06-06-010-03-315   September 29, 2006
     13. Texas and Mississippi Overpaid Unemployment                               Management Letter
                                                                06-06-011-03-315
         Benefits to Some Texas PSE Participants                                   September 29, 2006
     14. Louisiana May Have Paid at Least $3.7 Million in                          Audit Report
         Hurricane-related Unemployment Claims Based on         06-07-001-03-315   March 6, 2007
         Claimants Using Invalid Social Security Numbers
     15. Mississippi’s Suspension of Controls Resulted in the                      Management Letter
         Payment of at Least $25 Million in Disaster                               August 28, 2007
                                                                06-07-004-03-315
         Unemployment Assistance to Claimants Whose
         Eligibility was Unsubstantiated
     16. Louisiana’s Suspension of Controls Resulted in the                        Management Letter
         Payment of at Least $62.1 Million in Disaster                             August 28, 2007
                                                                06-07-005-03-315
         Unemployment Assistance to Claimants Whose
         Eligibility was Unsubstantiated
     17. Insufficient Controls Over Hurricane-issued Debit                         Management Letter
                                                                06-07-002-03-315
         Cards Created Opportunities for Fraud                                     August 28, 2007
     18. The Louisiana Department of Labor Paid $51 Million                        Management Letter
         in Hurricane-related Unemployment Benefits on          06-07-003-03-315   August 28, 2007
         Questionable Claims (NDNH)


22                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 06-08-001-03-315
                                                                                Katrina Summary Report


                                                                                             EXHIBIT C

                               Internal Control Issues Identified
                                          (By State)

    State(s)           Issue/ Report Number                               Period of Benefit
                                                                          Payments Examined
    Louisiana          UC Payment System Needs Real-time                  9/10/05- 6/3/069
                       Connection to SSA
                       Rpt.# 06-07-001-03-315 (issued 3/6/07)
    Louisiana          Validity of Claimant SSNs                          9/10/05- 6/3/06
                       Rpt.# 06-07-001-03-315 (issued 3/6/07)
    Louisiana          Initial Claimant Eligibility                       9/10/05- 6/24/06
                       Rpt.# 06-07-005-03-315                 (issued
                       9/28/07)
    Mississippi        Initial Claimant Eligibility                       9/10/05- 6/3/06
                       Rpt.# 06-07-004-03-315 (issued 9/28/07)
    Louisiana          Affect of Louisiana Auto Pay- No weekly wage       9/10/05- 11/19/05
                       reporting- to Nov. 19th
                       Rpt.# 06-07-003-03-315 (issued 9/28/07)
    Louisiana          Use of Data from National Directory of New Hires   9/10/05- 10/23/06
                       Rpt# 06-07-003-03-315 (issued 9/28/07)
    Alabama,           PSE Duplicated with DUA and UC                     9/05- 12/05
    Louisiana,         Rpt.# 06-06-006-03-315 (issued 9/29/06)
    Mississippi, and   Rpt.# 06-06-007-03-315 (issued 9/29/06)
    Texas              Rpt.# 06-06-011-03-315 (issued 9/29/06)
    Louisiana and      Duplicated DUA and or UC                           LA- 9/10/05- 11/5/05
    Mississippi        Rpt# 06-06-008-03-315 (issued 3/20/06)             MS- 9/10/05- 10/15/05
                       Rpt# 06-06-009-03-315 (issued 9/13/06)
                       Rpt.# 06-06-010-03-315 (issued 9/29/06)
    Mississippi        Impact of Paying Maximum Week Benefit              9/4/05- 6/9/06
                       Amount
                       Rpt.# 06-07-004-03-315 (issued 9/28/07)
    Louisiana          Failure to Timely Re-determine DUA Claimants’      N/A
                       Eligibility for UC
                       Rpt.# - None
    Louisiana          Accounting Control Improvements Needed for         9/10/05- 10/23/06
                       Debit Card Payments
                       Rpt.# 06-07-002-03-315 (issued 9/28/07)
    Louisiana          DUA Drawdowns Exceeded Recorded Payments           9/10/05- 10/23/06
                       Rpt.# 06-07-002-03-315 (issued 9/28/07)




9
 Hurricane Katrina benefits were payable through the week ending June 3, 2006. Hurricane Rita benefits
were payable through the week ending June 24, 2006.

U.S. Department of Labor—Office of Inspector General                                                23
Report Number: 06-08-001-03-315
Katrina Summary Report




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 06-08-001-03-315
                                                       Katrina Summary Report




Appendices




U.S. Department of Labor—Office of Inspector General                      25
Report Number: 06-08-001-03-315
Katrina Summary Report




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 06-08-001-03-315
                                                                      Katrina Summary Report




                                                                               APPENDIX A
BACKGROUND

Hurricanes Katrina and Rita devastated the Gulf Coast Region on August 29, 2005, and
September 24, 2005, respectively. Among their impacts, numerous local employers
were forced out of business and, as a result, an unprecedented number of workers
became instantly unemployed.

Those unemployed as a result of Hurricanes Katrina and Rita were eligible for one of
two benefit programs. The first, State UI, provides benefits to eligible workers who are
unemployed through no fault of their own, and meet eligibility requirements established
by their State. UI benefits are state funded except for some groups of former federal
employees whose cost are reimbursed by their former federal agency, etc. The second,
Disaster Unemployment Assistance (DUA), provides financial assistance to individuals
whose employment or self-employment has been lost or interrupted as a direct result of
a major disaster declared by the President of the United States. Before an individual
can be determined eligible for DUA, it must be established that the individual is not
eligible for regular UI benefits.

States affected by the hurricanes were faced with an unprecedented number of
unemployed workers who turned to the Federal-State Unemployment Compensation
program as a temporary source of income. This program offers the first economic line
of defense against the ripple effects of unemployment, while ensuring payments made
directly to eligible, unemployed workers are available for a significant proportion of life’s
necessities, most notably food, shelter, and clothing.

DUA is entirely federally funded by FEMA through transfer of funds to ETA which
oversees amounts allocated to State Workforce Agencies (SWAs).

To speed the delivery of services, the President pledged to provide hurricane victims
access to streamlined registration and enrollment in Federal benefit programs for which
they qualified. On October 13, 2005, the Office of Management and Budget (OMB)
provided implementation policy intended to “ensure a citizen-centered approach in a
cost-effective manner that prevents fraud and abuse.” While OMB called on Federal
agencies to relax – and even waive, if allowable – enrollment criteria and documentation
requirements, OMB stated that such measures should be time-limited. OMB also stated
that Federal agencies and their state and local partners should require compensating
controls, such as post-payment verification, to ensure that benefits would go only to
eligible individuals.

The affected State’s were tasked with providing unemployment benefits to the hurricane
victims under the most challenging of circumstances. The hurricanes affected both the
infrastructure and staffing of the State UI agencies charged with determining eligibility
and delivering benefits. Other states stepped up to act as agents for, or loan staff to,
the affected states for the processing of claims. Another challenge was that many of

U.S. Department of Labor—Office of Inspector General                                       27
Report Number: 06-08-001-03-315
Katrina Summary Report


the claimants and employers lost records that would, for example, substantiate
claimants’ eligibility for DUA. Despite these enormous challenges, we estimate the
affected States paid nearly $1.3 billion in combined UI and DUA benefits to claimants
following the hurricanes.

To determine if benefits reached eligible recipients as intended, the OIG initiated an
audit of payments made under the two programs. Our initial objectives were to
identify DOL programs initiating projects related to disaster relief, collect information on
program initiatives, identify vulnerabilities in the projects initiated, and determine areas
where oversight may be beneficial in preventing fraud, waste, or abuse. We provided a
series of special reports to the Department to communicate our results. This report
summarizes our previously reported findings and recommendations, and makes new
recommendations aimed at reducing and detecting UI and DUA overpayments.

Debit Cards Issued in Louisiana

To expedite the delivery of benefits, LDOL implemented a new payment method using
debit cards. LDOL contracted with JPMorgan Chase to establish debit card accounts for
claimants, and transferred pertinent information to the company--name, address, full
social security number (SSN), and birth date. JPMorgan Chase contracted with
Oberthur Card Services (Oberthur) to produce and distribute these debit cards.

Debit cards were sent to claimants based on addresses provided when they initiated
their claims. Because so many claimants subsequently relocated, debit cards were
returned undelivered to LDOL, as well as Oberthur.




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-08-001-03-315
                                                                    Katrina Summary Report




                                                                            APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA


Objective

Specifically, the OIG initiated work to answer the following question:

   •    Were internal controls over states’ claims initiation, payment processes, and
        fraud detection effective?

Scope

This report summarizes our coverage of UI and DUA benefits paid as a result of
Hurricanes Katrina and Rita. The objective of our work was to look at various control
issues concerning UI and DUA payments in the affected States including:

   •    Duplicated payments
   •    Initial claimant eligibility in Mississippi and Louisiana.
   •    Continued claimant eligibility in Louisiana
   •    Benefit disbursements using debit cards in Louisiana
   •    Validity of claimant Social Security Numbers (SSNs) in Louisiana
   •    The opportunity for States to implement a real-time connection with the Social
        Security Administration to determine the validity of SSNs during the claims taking
        process.

Based on available staff, and time and amount of unemployment benefits paid, we
examined selected issues related to the states’ administration of the UI and DUA
benefits for hurricane victims. As a result, some internal control issues were analyzed
in Louisiana and/or Mississippi, but not in the other affected States. While specific
findings may apply to only one State, the results can be used to facilitate a review of
current policy and procedures as part of the planning process for administering UI and
DUA in future catastrophic circumstances.

Our review period covered benefits paid for the weeks ending September 10, 2005,
through the period of benefit payments examined as shown in the table at Exhibit C.
Our work was completed at the respective State Workforce Agency and selected local
workforce boards and our Dallas and Denver Offices. Our period of fieldwork varied,
based on the individual issue identified on Exhibit C; but extended through July 12,
2007.




U.S. Department of Labor—Office of Inspector General                                      29
Report Number: 06-08-001-03-315
Katrina Summary Report




Methodology

In preparing this summary report we have incorporated issues and findings identified in
a related audit report and management letters. Additionally, we:
    • Visited three of the affected States and obtained their perspective on any
        additional issues concerning UI and DUA claims processing;
    • Met with ETA regional staff;
    • Met with ETA National office staff; and
    • Reviewed the National Unemployment Insurance Disaster Preparedness Plan.

The specific methodologies used in the respective audit report and management letters
can be found in the documents, previously issued, and identified in Exhibit B.


Criteria

     ¾ FEMA, Notice of Presidential Declaration of a Major Disaster, FEMA-1603-DR
     ¾ OMB Memorandum, dated October 13, 2005; Eligibility Verification Requirements
       for Delivery of Benefits to Victims of Hurricanes Katrina and Rita
     ¾ 20 CFR 625.6, DUA Eligibility Verification Requirement
     ¾ SSA, Section 303(a)(1), Debit Cards – Prompt Payment of UI
     ¾ Louisiana’s Debit Card Business Rules, February 2006, 1. Debit Card Issue
     ¾ ETA Federal Register Notice, Volume 65, Number 229 – Maintaining Eligibility
     ¾ Employment and Training Handbook No. 356, UI, DUA Handbook
     ¾ Assistant Secretary for Employment and Training Memorandum, dated
       September 16, 2005, DUA – Extension of Period for Submitting Documentation
     ¾ State of Mississippi, Office of the Governor, Executive Order No. 940, Relating to
       UI Benefit Claims
     ¾ UI Program Letter No. 22-06, NDNH – Use for UI Program Integrity
     ¾ UI Program Letter No. 04-01, Payment of Compensation and Timeliness of
       Determinations during a Continued Claims Series
     ¾ UI Program Letter No. 19-04, Additional Information for SWAs to Implement Data
       Sharing with the SSA via the Interstate Connection Network




30                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-08-001-03-315
                                                                 Katrina Summary Report




                                                                          APPENDIX C
ACRONYMS AND ABBREVIATIONS



         CSR          Customer Service Representative
         DUA          Disaster Unemployment Assistance
         ETA          Employment and Training Administration
         FEMA         Federal Emergency Management Agency
         ITSC         Information Technology Support Center
         LDOL         Louisiana Department of Labor
         NASWA        National Association of State Workforce Agencies
         NDNH         National Directory of New Hires
         NUIDPP       National Unemployment Insurance Disaster
                      Preparedness Plan
         OLRFI        Office of Labor Racketeering and Fraud Investigations
         OMB          Office of Management and Budget
         PSE          Public Service Employment
         SSA          Social Security Administration
         SSN          Social Security Number
         SWA          State Workforce Agency
         UC           Unemployment Compensation
         UI           Unemployment Insurance
         USDOC        U.S. Department of Commerce
         USDOL        U.S. Department of Labor
         WBA          Weekly Benefit Amount




U.S. Department of Labor—Office of Inspector General                                31
Report Number: 06-08-001-03-315
Katrina Summary Report




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 06-08-001-03-315
                                                       Katrina Summary Report


                                                               APPENDIX D
AGENCY RESPONSE




U.S. Department of Labor—Office of Inspector General                      33
Report Number: 06-08-001-03-315
Katrina Summary Report




34                       U.S. Department of Labor—Office of Inspector General
                                             Report Number: 06-08-001-03-315
